No.
IN THE SUPREME COURT OF THE UNITED STATES

Joseph Peter Garbarini,
Petitioner.____
v.
Lorie Davis,
Respondent
PROOF OF SERVICE
I, Jdseph P. Garbarini, do swear that on the
of the month of—v^f (AaP.

23

day

, 2020, as required by Supreme Court

Rule 29, I have served the corrected MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS and a copy of the PETITION FOR A WRIT OF
CERTIORARI identidal to the one served on May 13, 2020 on counsel
for the Respondent by depositing an envelope containing the above
documents properly addressed and with first-classzpostage prepaid.
The name and address served is as follows:
Sarah M. Harp
Assistant Attorney General
P.0. Box 12548, Capitol Station
Austin, TX 78711
I declare under penalty of perjury that the foregoing is true and
correct.

Joseph P. Garbarini

received
JUL - 1 2020
SUPREME'conp^-F.^

